  Report No. D-2007-068     March 12, 2007




         Force Structure Changes in the
U.S. Pacific Command - Andersen Air Force Base
              War Reserve Materiel
Date: March 12, 2007
Report No.: D-2007-068
 (Project No.: D2006-D000LA-0124.001)

Management Comments. The Commander, 36th Wing, Andersen Air Force Base
concurred with the finding and all recommendations. The Commander stated that
personnel have been identified to fill quality assurance evaluator positions and were
provided guidance. Further, the Commander stated that the schedule of quality assurance
evaluations was provided to Pacific Air Forces.

Although not required to comment, the Deputy Director for Strategic Planning and
Policy, U.S. Pacific Command, concurred with all recommendations in the report and
stated that those recommendations have been implemented. The Deputy Director noted
that monthly inspections and reports to Pacific Air Forces would begin in January 2007.




                                           2
Date: March 12, 2007
Report No.: D-2007-068
 (Project No.: D2006-D000LA-0124.001)


Results and Effect on Operations

The 36th Wing did not provide oversight for critical war reserve materiel (WRM) located
at Andersen Air Force Base, Guam. Quality assurance evaluators were not assigned to
provide oversight of contractor-maintained WRM basic expeditionary airfield resources
(BEAR) kits. However, on October 2, 2006, the 36th Wing officials stated that they had
appointed quality assurance evaluators to oversee the BEAR kits. Until quality assurance
evaluations are performed, the 36th Wing cannot confirm that the contractor-maintained
BEAR kits are ready to fulfill operations plan requirements.
________________________________________________________________________

Background. BEAR kits are part of the Air Force WRM and are designed to provide
facilities and operational support to troops. This includes but is not limited to lodging, a
field kitchen, showers, latrines, offices, shops, and runway matting. According to Air
Force Instruction 25-101, WRM is materiel required to attain objectives in the scenarios
approved in the DoD Strategic Planning Guidance. The Air Force positions WRM as
either starter or swing stock, or a combination of both, to maximize worldwide
warfighting capability. Starter stocks are those assets required at or near the point of
intended use until air and sea lines of communications are capable of sustaining
operations. Swing stock is the total planned forward operating location requirement
minus starter stock. Swing stocks are positioned to maximize flexibility to support
multiple theaters. In total, WRM should be sufficient to meet war planning needs
outlined in the DoD Strategic Planning Guidance.

Audit Results

        WRM-Funded Positions. The 36th Wing did not provide oversight for critical
WRM located at Andersen Air Force Base. Pacific Air Forces (PACAF) authorized
seven WRM-funded military positions to perform maintenance on the WRM called T-
550 housekeeping sets. Contractor-maintained BEAR kits subsequently replaced the
housekeeping sets. The contract for the BEAR kits was started in June 2004. However,
the Wing did not assign any of the seven WRM-funded military positions to perform
quality assurance evaluations of the contactor-maintained BEAR kits. Five of the seven
WRM-funded military positions, which are occupied and performing civil engineering
duties and maintenance on other WRM, are shown on the Civil Engineers Squadron
manning document. The other two WRM-funded military positions, which are vacant,
are on the Services Squadron manning document.

        Air Force Inspection Agency. In June 2006, the Air Force Inspection Agency
issued Report No. 05-704, “Basic Expeditionary Airfield Resources Reconstitution.” The
report cited the lack of quality assurance evaluators to oversee the BEAR assets at
Andersen. The report recommended that PACAF improve management oversight of the


                                              3
Date: March 12, 2007
Report No.: D-2007-068
 (Project No.: D2006-D000LA-0124.001)

BEAR kits and that Secretary of the Air Force update policies for the positioning of
quality assurance evaluators for contract surveillance. Management comments outlining
actions taken or to be taken were not included in the report.

       BEAR. The Air Force describes BEAR as a “critical Agile Combat Support
capability.” According to Air Force Instruction 25-101:
               It provides vital equipment and supplies necessary to beddown and
               support combat forces at expeditionary sites with limited infrastructure
               and support facilities. As a minimum, each location must have a
               runway and parking ramp suitable for aircraft operations and a source
               of water that can be made potable. . . . BEAR consists of a variety of
               systems and equipment, such as personnel shelters, aircraft shelters,
               food service facilities and equipment, hygiene facilities, power and
               water production and distribution equipment, heating, air conditioning,
               and refrigeration equipment, vehicles, runway lighting, vehicle
               maintenance equipment, civil engineering equipment and associated
               spares configured into Mobility Readiness Spares Packages.

Simply stated, the BEAR assets are critical, costly, and complicated. The 36th Wing,
36th Logistics Readiness Squadron is responsible for eight contractor-maintained BEAR
kits, totaling about $24.4 million, at Andersen Air Force Base. Squadron officials stated
that they did not have the qualified personnel to perform quality assurance evaluations of
the contractor-maintained BEAR kits as required in Air Force Instruction 25-101.
Quality assurance evaluators must have the expertise to provide oversight of the various
systems and equipment contained in the BEAR.

       Pacific Air Force. In September 2006, PACAF officials suggested by e-mail that
the 36th Wing at Andersen Air Force Base take one of the following courses of action to
resolve the lack of oversight for the BEAR kits.

           •   The Civil Engineers Squadron exchanges one civilian-funded position for
               five WRM-funded military positions.

           •   The Civil Engineers Squadron offers one WRM-funded position to be the
               quality assurance evaluator.

           •   The Services Squadron offers one WRM-funded position to be the quality
               assurance evaluator.

           •   The Civil Engineers Squadron and Services Squadron each offer one
               WRM-funded position to be quality assurance evaluators.




                                                  4
Date: March 12, 2007
Report No.: D-2007-068
 (Project No.: D2006-D000LA-0124.001)

      Tentative Solution. On October 2, 2006, officials at the 36th Wing informed
PACAF that they had identified two WRM quality assurance evaluators for the BEAR
equipment being stored at Andersen Air Force Base. Officials also stated that they had
accomplished this by realigning the quality assurance evaluators’ duties under the Civil
Engineers Squadron. PACAF officials stated that the quality assurance evaluators
completed training on December 15, 2006.

Conclusion. The 36th Wing officials at Anderson Air Force Base informed PACAF that
they had identified two WRM quality assurance evaluators for the BEAR equipment
being stored at Andersen Air Force Base. They also stated that the evaluators would be
trained and start providing oversight in October 2006. On December 19, 2006, PACAF
officials stated that the quality assurance evaluators were trained. PACAF officials need
to ensure that the 36th Wing conducts quality assurance evaluations of the BEAR kits.
Until quality assurance evaluations are performed, the 36th Wing cannot ensure that the
contractor-maintained BEAR kits are ready to fulfill operations plan requirements.


Recommendations

We recommend that the Commander, 36th Wing:

   1. Notify Pacific Air Forces when the two identified quality assurance evaluators are
      trained and prepared to conduct evaluations.

   2. Provide the schedule of evaluations to Pacific Air Forces.


Management Comments and Actions Taken

Management comments received on the draft report from the Commander, 36th Wing,
Andersen Air Force Base concurred with the finding and all recommendations and are
included in Attachment 1. The Commander stated that personnel have been identified to
fill quality assurance evaluator positions and were provided guidance and information
shared with personnel from an established quality assurance evaluator program in the
Republic of Korea. This action was completed December 17, 2006. Further, the
schedule of quality assurance evaluations was provided to Pacific Air Forces on
January 19, 2007.

Although not required to comment, the Deputy Director for Strategic Planning and
Policy, U.S. Pacific Command, concurred with all recommendations and are included in
Attachment 2. The Deputy Director stated that Pacific Air Forces funded the training for


                                            5
Date: March 12, 2007
Report No.: D-2007-068
 (Project No.: D2006-D000LA-0124.001)


Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Pacific Air Forces
Commander, 36th Wing
Auditor General, Department of the Air Force


Combatant Command
Commander, U.S. Pacific Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          7
Date: March 12, 2007
Report No.: D-2007-068
 (Project No.: D2006-D000LA-0124.001)


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                        8
Date: March 12, 2007
Report No.: D-2007-068
(Project No.: D2006-D000LA-0124.001)


36th Wing Comments




                                           Attachment 1


                                       9
Date: March 12, 2007
Report No.: D-2007-068
(Project No.: D2006-D000LA-0124.001)


U.S. Pacific Command Comments




                                            Attachment 2


                                       10
